No. 19-638
IN THE SUPREME COURT OF THE UNITED STATES
_________________
N.B.D., PETITIONER
v.
KENTUCKY CABINET FOR HEALTH AND FAMILY SERVICES
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via email and first-class
mail, postage prepaid, this 21st day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5991 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 21, 2020.

May 21, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0638
N.B.D.
KENTUCKY CABINET FOR HEALTH AND FAMILY
SERVICES

TERESA CUNNINGHAM
CUNNINGHAM & ASSOC.
2600 BURLINGTON PIKE
SUITE 340
BURLINGTON, KY 41005
THOMAS E. EDGE
319 YORK STREET
NEWPORT , KY 41071
TEJINDER SINGH
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
TSINGH@GOLDSTEINRUSSELL.COM

